DOCKET,NQ„

IN THE
SUPREME COURT OF THE UNITED STATES

TERM, 2020

VERNON ALLEN COLLINS,

• Petitioner,.

f?, '-v* R

v.
UNITED STATES OF AMERICA,

Respondent,

ON PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS FOR FOURTH CIRCUIT

filed

NOV 2 5 2020

PETITION FOR WRIT OF CERTIORARI

VERNON ALLEN COLONS # 529-762
P.O.Box 861
T renton. New Jersey,08625
Pro Se Petitioner

rnsmm
NOV 3 0 2020

B«g

QUESTIONS PRESORTED
I. WHETHER THE APPELLATE COURT ADOPTIONS OF THE DISTRICT COURT
DISPOSITIVE PROCEDURAL CONCLUSIONS ERRED IN HOLDING COLONS HAD
FAILED TO PROVE ARTICLE III REQUIREMENTS DESPITE HIS PETITION ALLEGED
FACTS DEMONSTRATING PROOF OF THE THREE ELEMENTS OF HAVING
SUFFERED AN INJURY IN FACT THAT IS FAIRLY TRACEABLE TO THE CHALLENGED
CONDUCT OF THE. GOVERNMENT IMPROPERLY IMPOSITION OF THE ENHANCED
TWENTY

YEAR

SENTENCE UNDER THE

RESIDUAL CLAUSE

DECLARED

UNCONSTITUTIONALIN JOHNSON V. UNITED STATES, 135 S.CL2551 (2015) THAT IS
LIKELY TO BE REDRESSED BY A FAVORABLE JUDICIAL DECISION WAS MORE THEN
SUFFICIENT TO SATISFY THE CASE OR CONTROVERSY OF THE CONSTITUTIONAL
MINIMUM STANDING OF ARTICLE HI SINCE THE ENHANCED SENTENCE RESULTED
IN HIM SERVING FIFTEEN YEARS MORE THEN THE CONVICTION OF TITLE 18
USC § 922(g)(1) AUTHORIZED PREVENTED HIS NEW -JERSEY STATE SENTENCE OF
LIFE IMPRISONMENT WITH PAROLE INELIGIBILITY FOR TWENTY-FIVE-YEARS FROM
COMMENCING EARLIER AND HAVING TO SERVE MORE THEN THE TWENTY-FIVEYEAR MAXIMUM BEFORE BECOMING ELIGIBLE, FOR PAROLE CONSIDERATION
RELEASE ON THE STATE ?
IS. WHAT STANDARD OF PROOF DOES THE DEFENDANT AS THE PARTY INVOKING
CORAM NOBIS JURISDICTION BEAR IN ORDER TO PROVE THE CONSTITUTIONAL
MINIMUM STANDING OF THE THREE ELEMENTS OF ARTICLE III BEYOND A
REASONABLE DOUBT OR PREPONDERANCE OF THE EVIDENCE?

-is-

a

LIST OF PARTIES

[*g All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

TABLE OP CONTENTS

PDIMinA!
SC!
r\\AI
UJ Tl “'*
* " • * * ~~«•

B

ii iQiQnir^Ttr^M

CONSTITUTIONAL AND STATUTORY PROVISION INVOLVED.

n

STATEMENT OF THE CASE.......
4

REASONS FOR GRANTING THE WRIT.

CONCLUSION.....

J3

INDEX TO APPENDICES .
APPENDIX {AL United States District Court for fee District.of Maryland Order denying:28 U.S.C. 1851 Petition
for Writ of Error Coram Nobis Relief*. Civil. Action No. GCB4 7-954 fRef. Grim. Case No.. CGDS7-338; Filed.
November 1,201:9} (. unpublished).

APPENDIX S). United States Couid of Appeals for the; Fourth. Circuity No. 20^6013, Decided; August 25,2020,
Affirmed by. unpublished per curiam opinion.

-iv-

4

T&R5
&l rmnOSTECQ
PS!6=!>
iraJ> a5? ACnv
m >vi u i uu \A i kw
P£AC€
i-

A&QC?*

Breeden v. New Jersey Department of Corrections. 132 N. J. 457; 625 A2d 1125 (1993).

............22,8

Collins v. United States. 138 SiCt 83,2017 WLJ134351. at 4 (2017),....
Johnson y. United States. 135 S. CL2551 .{2015).............

■t i

............4.5,8,7,8,9,10.11.

Frank y. Gaos. 203 LEd. 2d 404 (2019).

.,9

Friends of the Earth. Snc. v. Daiias. 493 US. at 180-187,120, S. CL893,145 LEd. 2d 810.

,9

Luo-on. 504 US. at 568,112 S a. 2.130,119 LEd. 2d 35.

,8

PWiPS v. DaSias. 493 U.S, 2.15, 23.1,110 S.CL 598,107 LEd 2d 603 (1990).,

.,9

Cnnlran Ina

.3

v. Robin. 136 S.CS. 1540 (2016)

State ax rai. Araarsinoar v. Hamtin.. 236 So. 2d 442 445 (FIs. 1970) (Boyed, J., concurring [***231 in part,
dissenting in part), rav'd, 407 US. 25,92 S.CL 2008,32 LEd:2d 530 (1972),,..

.12

State of New Jersey v. Candelaria, 311 N. J., Super. '437;. 710A2d 545, (1998)

.............. 12

State v. Roth. 95 M.JL 334,389,471 A2d 370 (1984)........................................

11

United States v. .Ball. 470 US. 865 (1985),........ ............................. ...............

..3
■2,3

United States v. Collins. 95 F. Appx. 505,506 (4th Cir. 2004).
United States v. Coiiins. 672 F. Appx. 302,303 (4th Cir. 2017).

,3
,5.7,9,12

wna-r< 911(2009).
United States v. Denedo. 556 US. GTxA

,.7

i/ei

United States v. Paviioo, 961 F.2d 440,443 (4th a-. 1992).

2

United States v. Tavior. 857 F.2d 210,212 (4th Cir. 1988).

,2

Weioh v. United States 138S.CS. 1257,194 LEd. 2d 387 (2018).

••V

2

see
STATUTES AND RL^_„

18 U.S.C; § 922(g)(1)..........

.............,12,3,4,5,6,7,9,10,
122,43,8,72,10,1,12

18 U.S. C. § 924(e)(1),,......
21 U.S.C. §§ 846,

,1

21 U.S.C. 841 (a)(1)....

1

21 U.SC. 845 (h)(1).

,1

2.1 U.S.C. 881

,1
-v*

,2.3,8,8

28 U.S.C. 2255,
Federal Rates of Appellate Procedure, Rule 4 (a) 01) B,.
Former Federal Rotes of Criminal Procedure's Rate 35(e).

.2,3

OTHER
Blask Law Dictionary defines an Injury in Fact: An actual, or imminent invasion of a legally protected interest,
contrast to an invasion that conjectural or hypetiisticsL an injury in fad.^s«»,8Jfevfe^iR.^»KS5g>te.bfBjg.-ap
,,9,

action for damages.

-vi-

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix S__to
the petition and is
; or,
[ ] reported at
[ ] has been designated for publication but is not yet reported; or,
[H. is unpublished.

A to

The opinion of the United States district court appears at Appendix
the petition and is
5 or,
[ ] reported at
[ ] has been designated for publication but is not yet reported; or,
is unpublished.
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
to the petition and is
Appendix
[ ] reported at_______________;___________________ ____; or;
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the —
appears at Appendix

court
to the petition and is

; or,
[ ] reported at __—
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.

JURISDICTION
[ ] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was .
r&STj
•
M No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
, and a copy of the
Appeals on the following date: ----------------order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
(date)
(date) on
to and including-------—
in Application No. —A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

y ec

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix---------[ ] A timely petition for rehearing was thereafter denied on the following date:
____________ , and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
(date) in
(date) on
to and including-----Application No. —A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

8

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

Fifth and Fourteenth Amendment

United States Constitution Article ill.

.6.7,8.9

.4,5,7,8,9,10,1112,13

TrU

A, The Proceeding

CT OF THE CASE

WSWff

On October 9, 1987, Petitioner. Vernon Alien Collins was found guilty by a jury of one count of
conspiracy to distribute and posses with intent to distribute heroin, in violation of 21 U.S.C. 1848; one count of
possession with Intent to. distribute heroin.. In violation of 21 U.S.G. § 841 (bXI); one count, of employment of
personfs) under 18 years old to possess withIntent to distribute heroin; In violation of 21 U.S.G, §. 8450(1)(now
codified at 21 USD. 1.881 Xsndtwo counts of possession of a firearm., in. violation of 18 U.S.C. § 922(g)(15 and
18 U.S.C. § 924foX1). According to the Superseding Notice of Enhanced Penalties, Collins was subject to two
"enhanced punishments pursuanflb Title 18 U,S.;C. § 924(e) of not, less 15 years imprisonment as to Count IV
and additional sentence of not less than 15 years, without the possibility of parols based on three alleged prior
qualifying convictions under the residual clause.
On November 24, 1987, the^ late Judge: John R. Hargrove sentenced Collins to foirty-five years: Inprison on charges of eonsplracyfo distribute sndposmss wlth intentte distribute heroin;:possession with Intent
to distribute heroin; employment of a person under eighteen years of age to possess with intent' to distributeheroin: and possession of a firearm by a-convicted felon. See 21 USD. §§ 846,841 (a)(.1) and 845 (b)(1) and
18 U.S.C. §922£gX1) and 924(@X11 The sentence hsdbwo components; First Judge Hargroveordered Coffins
•to serve tires concurrent fifteen year prison terms on his convictions on 'Counts One, Two and Three of the
indictment (Le,, the-drug charges). Second, Judge Hargrove ordered Collins to serve two concurrent twentyyear terms on his convictions on Counts Four and Five of the indictment 0.e.,ths felon in possession charges).
The tweniy-ye&’-fefen in possession terms were made to run consecutive to the fifteen-year narcotics terms
The firearms component^of Collins’s sentence was based in part on a finding by Judge Hargrove that
Collins qualified for a sentenolng enhancement codified at 18 USD. f 924(eX1) That provision provides that
a defendant found guilt of a violation of 18 U.S. C. § 322(g)(1) is subject to a minimum mandatory sentence of
fifteen years If he bas previously been convicted of at toast three crimes of violence and/or serious drug
offenses. See id. tie Untied States submitted a sentencing memorandum in which it identified three qualifying
convictions and argued that the enhanced penalty applied:
a 1988 conviction for robbery,
a 1972 conviction for assault with intent to murder,
a 1973eonv!ct!on for common law assault.

During Collins'S sentencing hearing, fcis aSorney mentioned tee possibility of mounting a challenge to
the predicate convictions down the. line. JudgeHarsgsve ^vdsed him th2t;the. oon¥ictisns

presumptl-^y

valid until proven otherwise.
On September 13* 1388. the’ Fourth. Circuit affirmed Collinses conviction, United States v, Tavion 857
F.2d 21:0 (4th Cir. 1938). On August 28.. 1992,. Collins "Sled his first: MO:S.C. § 2255 motion to vacate. See
United States v. Collins, Criminal No. HAR-87-0338 at Paper No. 71 (Collins v. Unites States, Civil Action No.
HAR-92-2442). On December 13,1994, Judge Hargrove denied the motion to vacate. January 9,. 1998, the
Fourth Circuit affirmed Judge Hargrove's decision. United States v. Collins 74 F.3d 1234.1938 WL10235 (4th:
Cir. 1998) (per curiam). On May 13,1398, the Supreme 'Court denied the petition for certiorari.
On February 20, 2002: Collins Ned pursuant to-former Federal Rules of Criminal Procedure, a Rule
35(a) Motion to Correct Illegal Sentence .te teat motion Collins ohallenglng the legality of die fvo separate
convictions and concurrent sentence imposed tor Counts 4 and 5 of tee Indictment On April 15, 2002. lUL
District Court, Judge Catherine C. Blake, In a memorandum and order denied Collins Rule 35 motion. United
•States v. Vernon Collins. Cite No. HAR-87-0338, Civil Nor GCB-G2-969, Criminal No. HAR-87-0338.
However, Fourth Circuit reversed one of Collins convictions under 18 U.S.C. § 922(d)(1) because that
985), and ordered

w>

Judge Blake to vacate one tee two twenty year sentences imposed under Counts 4 and 5. In 2903 Judge
Blake vacated one of the two sentences of twenty years imposed under tee residual clause of tee Armed
Career Criminal Act of Title 18 U.S.C. 924(eX1).. Sss United States v. Collins. 2004 WL 857231 (4th Cir. Apr.
22,2004).
On January 4,2016 Collins filed a. Motion to Correct an ilisgai Sentence pursoarinc former Federal
Rules of Criminal procedure challenging tee twenty year term, impend under count 4 arte 5 under tee residua!
clause of tee Armed Career Criminal Act 18 U.S.C. S24(eX,l) for Collins conviction under 18 U.S.G. 922(g)(1).
in Sight of this Court’s resent detisfoff rendered In Johnson v. United States 135 S.Ct. 2551 (201:5) that
invalidated tee residual siause of tee ACCA definition ter "violent felony'' as unconsfiiufionaiiy vague.
Johnson, susra. 135 S.Ct.af 2558. However, US..District Court.Judge Catherine C. Blake In denyingrelief on
July 12,2016 held: Collins was net entitled to relief because in aecerdsnee to tee district court, Collins had
completed his federal sentence in 2005 and had been released to a detainer to begin serving a New Jersey
Stats intense, and remains in tee custody of the New Jersey Department ofCorrections, and ho eerilficafe of
appealability wit! be issued.

2

Pursuant to FedOrai Rules of Appefiafe Procedure. Rule 4 (a) 01} B, Collins filed August 18,2018 a
timely pro ss, Notice of Appeal:; alone with a. certificate of appealability. appealing: the district court’s sua
spente treating of his termer Rule 35 (a) motion to correct an illegal sentence, as one filed pursuant to 28
U.S.GJ2255 and subsequent July 12,2016 denial of; that motion upon procedural grounds and a certificate
appealability (CGA). The United States Court of Appeals forthe Fourth Circuit) docket this appeal using the
six-digit docket number 16- 71451, and Ordered Collins to file his informal brief by September 19,2016 using
those numbers, in an unpublished opinion dated January 5,2017, the United States Court of Appeals for the
Fourth Circuit in affirming the district court conclusions firsteenduded In a footnote although Collins insists teat
the district court improperly construed his motion as a § 2255 motion rateer than a termer Fed. R. Grim. P. 35(a)
motion, we conclude that Collins' substance claim is not cognizable under former Rule 35 (a), and therefore,
tee district court's construction of tee motion was not erroneous, siting united states v Paviieo. 961 F.2d 440,
443 (4te Cir. 1992). The Court teen coneluded: We have independently reviewed the record and conclude
teat Collins has not made tee rsouisite showing. AKterdingly, we deny a ttertifieate of appealablfity and dismiss
the appeal. We dispense with oral argument because tee facts and legal contentions are adequately
presented in tee materials before teds court and argument would net aldfos decisional process United States
iTTigrics v \

inrysn

On July 2016, tee court denied Collins's §2255 motion because he had completed his federal
sentence, noting teat in 2005, he was released to a detainer to begin serving a New Jersey State sentence.
(Case No. CCS-87-338, ECF No. 127), Collins's appeal cl Ihis decision was denied on January 5, 2017,
United States v. Collins 672 F. App’x 302,303 (Ate Cir. 2017). On October 2,2017, tee Supreme Court dented
his Petltfon for Writ of Certiorari. Collins v. United States. 138 S. Ct. 63, 2017 WL1134351, at*1 (2017).
On April 6, 2017, Collins fifed a Petition for Writ of Error Coram Nobis to chai tenge his "illegal
enhanced sentence teat continues to subject him to remain on federal parole until 2022, and causes or
prevents his New Jersey Stats enhanced: sentence of Site imprisonment with twenty-five years parole
inellgibiiityfocommence from 2001." (Pet. at 4, ECF No. 1),
On November 1, 2019 U,S. District Judge Blake's

s

ikying

Collins petition for a writ of error ooram nobis to vacate tee illegal nonparoisbie enhance sentence of twenty
years, Imposed under Titls18,y.S,C; I924(eK1 > "Resdual.Clause" of the MnedCar^r Gnminai Adie' for his
conyfotfons of Counts 4, and 5 of tee indictment charging violations of 18 U.S.C. §922(g) (1). District Court
Judge Slake ruled although Coliins met tee first requirement for csrsm nobis relief, as be is no longer in federal

3

custody and cannot seek relief under the typical remedies for a direct appeal or eoBdteral chsiienge to his
federal sentence; Collins cannot however, meet the second requirement because he somehowbadly averts,
that he has met his burden to overcome the presumption that his conviction was correct, but provides no
reason for not challenging, the sentence earlier.. Instead base his claim on the U& Supreme Court's decision,
in Johnson relieves him of his burden to show that the underlying proceedings were eared Coiiins fails to
show adverse consequences from his conviction sufficient to satisfy toe case or controversy requirement of
Micie ill, toe third requirement, tor csram nobis reiieh and iastiy Coiiins cannot satisfy the fourth requlmment for
cot

vyn

&<

■remorsndum opinion order, sing. 5, paragraph 2-3, Fn. 7; Pg. 6.

Bv /ftW.

pg. 7, paragraphs 1 -2),
The Petitioner Coiiins timsiy noted an appeal and to# United Sates of Appeals for the Fourth Circuit
afSmied toe United Sates a^ct court:judgment in an .onpubii^ied per curiam opinion dated August 25,2020
holding, "We affirm substantially on toe reasoning of toe district court,, concluding that Collins failed to show
vi-wm

Dscided Ai

i/trt

y Article III stand

rjxfcg®

No. 20BG13,

st 25,2020. Apprc. (&1-2I.

REASONS FOR CHANTING THE PETITION

A.. This Court should sent a writ: of certiorari to resolve and determiner whether adverse
consequences exist, from a defendant Improperly sentenced to an enhanced sentence under to# residuaf
oiaus# of Title 18 USC §924{s){1) declared unconstitotton;

ikrioAn u

Ct 2551

(2015) was sufficient to satisfy toe case or controversyrequirement of toe irreducible cOnstitutfonsl minimum
of standing of toe: three elements of Artiste 58 to constitute concrete injury when that enhanced sentence
caused toe defendant to suSer -,»w*«..ly an Injury of having to sevs ttasjtosib then his convietton of
Afli

Title 18 USC 922{gK1 > authorized fed, having to serve more then toe mandatory twenty-two-year maximum
before becoming eligibility tor parole ccnsiderstton.en a life sentence toe Sate of New Jersey imposed with
parole ineligibility for twefey-fh/o-yssrs.
B. This Case presents toe perfect opportunity tor this Coun ts resold and determine what standard of
proof doss toe defendant as toe party invoking

„m,odbis jurisdiction bear in «dsr to prove toe eonSfltuttensl

minimum standing of the tore# elements of Article N beyond a reasonable doubt or preponderant sf toe
evidence.
ARGU?dB8TL
A

WHETHB* THE APPELLATE COURT ADOPTIONS OF ITS DfSTTSCT COURT
DISPOSITIVE PROCEDURAL CONCLUSIONS SIN HOLDING COLONS HAD
FAILED TO PROVE ARTICLE 81 FEQUIRaSiTS DESPITE HIS PETITION ALLEGED
FACTS DSfONSTPAHNG PROOF OF THE HWSE 3SSITS OF HAVING
SUFFERED AH *fJURY Si FACT THAT *S FAIRLY TRACEABLE TO THE CHALLENGED
CONDUCT OF THE SOVERS^tEN? ^PROPERLY ^POSTICSI OF THE SSIAHCED
TWENTY YEAR SSVTSHCE UNDER TTE RESIDUAL CLAUSE DECLARED
UNCONSTITUTIONAL m JOHNSON V.UNiTED STATES 135 S.CL 2551 {2815} THAT'S
T

y

t/> «r ner*P»eyt«rn pty a
ar SHWHAI nc/wnnM iMtoiinog txjo.1
* V7 a5*5 ?«2S/#^5I252551•f 257
i *riy» ir^«i£ jwSJrUEftJw^iL. wbimnUM »6rjw #»5L£f*E2 ?T*2IPs

<s^RrmTTAC&7KP/'nsrA€Ern&mftm^%ff8«v
/«nicrnueiprnn»ft}
wi#i » cwvbof » u>
*■ rw* • i«l£> wraA. wtf t^wtvrf tw
wi
rrnto
UMMttl
gTAMTtfttfS AC m
APTMC
ffi CBinr TUC EWAira>«aiTrairP !Sra» 7X7)
mgniro/m
ifAVao* #*» tuwra^i- *?c&— i-Iw atu^w^s^ i-ra-j* jtmtui> t ii^iw^fc.t htf
oi
uai
jnr s'tiBWT

SB38NSF!FT^f YEARS MORE THSf THE CONVICTION OF TITLE 18

USC f S22^ft) AUTHOfSZED PREVENTED HfSMESf iSISEY STATE SSfTENCEOF
UFE SIPRSOJNMSfr WITHPARGLE fNEUefgtJTY FOR TWFMTYFR^YEARSFRCSI
COSsSSiONG EARLIER AND HAVING TO SERVE MORE TFSS THE TWENTYTWE
YEAR MA5SMUM BSOfS BECQSSNG

FOR PAROLE GONSIDBLATION

I^EASEON TTS STATE ?
Hsm, Ys?non Mm Colins. pegitoner was found

m O&obgr 9.198?. fey s fay of two counts of

possession of a dreamt, in violation of 18 U.S.C. § 922fgX1}. On November 24. 1987, aesonllng to «**
ili CF

Superseding Notice of Enhanced Penalties* mo iste Judgg Mm R. Hergrove pursuant to TSfe IS U.S.C. §
924{sX1) sentenced Oc-ttfns for two ccmffotfons of possession of a Umam by a oonvlctod feton to serve two
concurrent twenty-yesr tenns on bis aswfcfions on Counts Fas- and Fh» of S» indictment 8.#.,, fog fefon in
possession charges). V Tbeiwensy-year fefob lb possession terms was made to run oonsesuiivgto too three
concurrent SSeenyear sentences imposed a? Counts 1,2. and 3f for cenvfctfons of violations of Tfes 21 USC
§848 (gmsffceefy possession wife fofent to distribute lido 21. USC 841. and sonspirseyfo possession vntb
frfentte'distrMde&Kiiienl ms 21U3CSS45.

FN1. Godins was subject to two ’enhanced punMsnsnte of tvrentyvears Imprisonment as te Coon! IV and V
without the poasftfflgy of gaols based m teas aftejpd prior «psfsf?tog oobvfoierfeunder the resSStoS stem
Tbs feesrmscompememcfCfelfins’sssfegnoewasbsssdin pad on a finding by Judge llargreg fe€sfa
OssTfSsd for a sentencing enhansemont cosiSsd at 18 U.S.C. § 924feX1}. Rat provision provides Srat a
defended found guilt of a wofOfon of 18 U.SC. § 922^f11 IssMsstfoa narferasn nagfogfeay osterss sd
fdb^n ysss if bs bss fsayfaMy tear cat^stsd td at Isa^ tfoos ssfosos of yfotenos s^r ^rfoas <fojg
tss

f'a

sssnscSions and ar^sdibatfososfoaffcsdpenE^yajM^s 1988sonvfoifon Mnfobsry,
s 19?2ix!n¥kafonM-SBsau{twfm4dsntfonRsd0r.
a 1973oonvnSfon foroonsnon lawassaoit.
§

First. &fflSt% after tote --am

</

i

L 2551 <20151. PeSBoner

fat

CoBbss fifed on January 4,2B1'« a "Motion 5s Coned m tiieggi Sentence Pursuant to Former Puie 35<£1 sf toe
ytnnabv
,.«.-yed as a MoBon 'is Vacate under 28 USC §
Federal Pules sf CrfmtoaiProcedure." whs* is© dtethdooyrt .w,

2255 (Casstoo.

55 w?

U&Ui

;t-

iVrj

States. 135 S.Cb 2551 <20151, IBs sentence on his 7555a 18 USC §922<g1 {1) ,8»^iW '«wb. impnjpedjr
enhanced under toe ACCS’s residust dauss. £nd 8?© dtetoefccyrt denied, Ooliteds § 2255 nspBca on My 7,,
2018 based upon dondystons he had aifegediy completed his federal sentence, nottogtoat to 2985, he was
released 5c adefateerte begin seratog fcftewr Jersey state: sentence, Cotters appealed,

•

«?»

decision denying

reiisf from toe enhanced sentence/pursuant to .28 USC f ,2255 reiief sad toedsdston was. sitemed cn January
*
c»

m

A

V
£

yailziA. »wC*

eft was dented by this Court October

mJ-

Coffins fifed on April 8. 2017, a petftton tor w&'cf vP?.23’5 nofete to challenge toe Btossf enhanced
sentence feased sn toe district waits prior njfing dgnying relief under 28 USC 2255 because h© had allegedly
comptetod his federal sentence, he could net seek reiief under tod typical remedies tor s deed; or eeifafersl
attack of a federsf judgmentand sentteic© because aostotofhS to too dtotodoOGd he was no tonger to custody.
See 28 USC §2255 (1948); 28 USC §2241 (1S481. Coffins cersm nobis petition established tost (1I reftot under
the typical fejoediss tor deed or coBatofa! .attack of toe federal judgment and enhance sentence against
Coffins was not. svstisbte to hfm. Thus satisfying the tod prong Of United Safes \f. Deng-do. 558 U.& '904,
91{20G9).
Oj34*WxW

Cotitos'spetitton

cersmnefels reilefestebttehedt^fespsdtotesPensdctessscnd prttog

that reasons exist tor not hadng lunching or attacklngtoe enhance'tetentywesr sentence earner was a yaBd
one, to Iktotof the fasttost toe U.S. Sitoreme only recently rendered toe primary decteton to Johnson United
States. 135 S.0t 2551 (2815) on-which he relfes„ And Sled toe pgfitton tor *j# of eorsm ncfefs reiief
tmmedtate!y aSa- thedrstrtot rstst 4to otosjit appeSde odwrt and toe U.S. I&spmm rrtotortod Cofftos to s^ss not
entitle to reBef fern toe enhsnsed twsntryesr sentensse porsifant to. 28 USC § 2255 mtief besaoes he ^as no
tonger under sudody of toe Government sdvtog a todtoaf sent^tog. United States ¥. CeBtos. 872 F. ^to'x
'zno

303 (4to Sir. .2017). and Cert, was denied by tote Court Odrtoer 2„ 2017. Cojitoe v. United States. 138

S,a 83,2017 WL113435, d * <2017).
Third.. Ojiitos’s petition ooram nobis reiief estabitehed that he is yd burdtoied ^ito his enhanced
federai h^enty-year sentence tetontoerty rmpo^d smder tfto residysf douse of Ttee 18 USC §924<e> bdrause it
»

6

had not been vacated. under tote Court’s hotdtng gf Johnson v. United States. 135 S.€t. 2551 12045) it was
anscrtsSteSSrsak H® has been caused to suffered acoBoratote&sy{Htepgsp-hehgs beehtoreedto sensed
■fifteen 'years more Sian Sis statute, Ira was convicted of Title 15 DSC f @221g) 11) :metherised when he
Improperly impend under tog rgssdual Passe pi Trite; 15 teSC i S241e> bgpared Lmeenteituttensi si Johnson
that prevented CPims’s ffombeing ratessed upon mandatory release tern federal pustedy veto good conduP
tone credit rive 15) years egrtter tesn 2905: continuesto cause ten to not only to suffers?#. sab^s?## sdserae
colSatersi consequences,. s.g of not having his. {tow Jersey .teste sentence ofUfa imprisonment with gates
insiigihiiity teteenty-Svg-yegrs■ fiww
»„,» commanPng five 15) yearn eartter then 2995, bP even more Importantly
paused him to serve more Step toe mandatory maximum Ptwenty-Sve-years before becoming eligible for
paroteteonsktersifon on his teew Jersey state sentence of tie rmpnsonmeetwifo gates Ingfigibrtify tor teemy'five-years hist sniyestablished .adverse eonsegusneesetete but Siossrtelsteral.eon^auenoes resuitina from
the teentwyears. enhanced sentence smpropedyiriaKJSgdunste'Sig ri^dustclau^oflitle tSUS.C. i^d.
1e) dgpgred declared enoonteteitfons! by Site Court in.dobtefdn. was more Sign sufffotent under Dgngdc’s
torrd. prong to satisfy the case or controversy regurrement of .Arttefe W, Sues elements to oonstifate concrete

tetey-.
Fourth, Golllnste petition tor stem nobis relief with reject to Dgngdc’s fotsto preregutelfg gs to
whetogr this Court’s decision decided in Johnson v. Unitor

mra

v was an error of toe most

fundamental character ’ such that oorsm nobis relief is required to "achteve futefeg'’!tenede, 129 S. Ct at 229.
" A terminate^ toat derives from the O.S. Supreme Court decisions of long standing, where the Court
emphasized that an error of toe most fundamental charsetef is one tost has "rendered tog proceeding itself
pj,©yj

'*

l. Collins’s

tlS^dWi

portion for oorsm nobte teief established toat toe umcenstttoticnsi error toteessengd In his,case at sentencing
was an error of the most fundaments! .character’ site that ocram nobte reItef is required to "achieve fusttee
when toe district; court to sentenced him to an enhanced sentence of twenty years without parole eliglbtitiy
based upon .conclusions toe three prter convictions toat court Passiffed to be viofenee fefontes under tog
151

Jr,if

«37I3

i i fOHJ

■ aj

Sfn

Un

Trs5#1

#1

to bg, In terms c-ithg fourth

prerequisite of oorsm nobte an. error "of toe mote lundamsntal character" because j|

held the

indgtermlnssy of the wide-ranging inquiry required by the residual Pause bote denies fair notfeeto defendants
and Invites, arbitrary enforcement, by fudges and tesreaslna a; defendants sentence under fog pause dentes

7

doe process, V
Although Ctolifesf&fifl&fer* fersoaui-iMt^ sgpgtt rsM' undsr'8SSC«iff5’ Johnson decision an#
undeniably ssSsflsd all four of Denedos Dr©fgnu;sit©s Dronofoaf must be metbeforesorsm nobis relief can
b© granted. Thg district court rsetfertoetess smsn@cusiy rufed:
AS8»u#i CeHfes fast. toe tost

for ocaam nobis reBef, .as he Is ns tongsr In

federal custody and osnnot s§ek relief under lbs bfptesi remedies for adsrgcf appeal or
collateral chaHgng© to his federal sgnfencg; CoUfes cannot however,, meet to© sscond
fecptoesmb because- be somer^ feadly asserts tost he das met his feurrign to
cvsrcorns to© presumption tost his convictionwasoonect, butprovides no reasonfor ns?
challenging to© sentence earner. Instead has© bis

on toe U.S. Supreme Court's

decision to Johnson relfeves him of his banton to shew fotot. to© unrieriyfog proceedings
were correct Collins falls to shew adverse consecpisnogs from. his conviction sufficient to
satfefy to© ©as© dr controversy fertoirsmsnt of Article Iff, to© toad regajremsrit'fcr ccram
nobis reltoft and lastly Coffins oannot safely to© fcssto rgguirernerd Sr ccram nobis
rslisf.. Appendix (Appendix (AH-d). fGCB memorandum ootofon order, at so. 5.

asiissHS 2&JFnJk EslS,58iJL

r 1-21. H

On spsmaS aStougr to© appeliai© csyrirgfesfed to© ma|erityef toe district court erroneous oonclustons
for dgnyfogooramnobisrellsf foesppgffsfe oouri adopted feedt^rictooyrfs Artfctelto findings:
Ife' sffton substantially on to© reasoning of to© dlstost spurt, eondudtog tost
Collins felted to show sMtsant Injury to corere? Arfirie 9t standing. Vernon
Alton Collins, v United Sbtoss of America. No. 20-6913. Appx. gM-2).
Clearly, to IrgfdotfeecssesofifrisCtouribsfe feat to© toeditobfortof^todxtosf tototottonof Mandtof
consist oftores ©femsnls. tuom 594U.S. to 566,112 S. Cf. 21.39,119 LEd. 2d 55. That tog rigfertesnf rmist

'FH&..tSsfoeslytofeCsurrcspstoded Johnson errors were an ©nor 'otto© most fendsmgntel character* ©fees
to© todstermfeacy of to© wide-ranging forstsy respsssd fey toe residual oteuse festo denies fee nodes to
defendants and ferrites sltsy-eissrassS by judges and" increasing a. dsfendsnfs ssntenc© under to©
f2016).;fe©te federal hsfesss mottoes cbaftongfeg ssntencfegpurstent to to© Armed Career Orimfeal Aetunds?
Johns©© idtesssri pffeonsrs gpsls-te fevaSfd^s ©uch ssntencss under 28 If.S.CX2265 moScos vrifosrd ssefcfeg
serir^^atsmCSajat^gfe^F^^tegsepi^-lied

Ssd2^5?B©8sRs.

RS. The disfefet «gto: rfeatoscn sis© snonssesfy idsesd s fctods? on CtoSm ®©2tor tosn

frrong

©K|ugfss^®ft 5dD^^fo tosdtosn «s©ato sa^gs j^f ®; to©il3Sifd«sMysaiasf Ck^ss to ^ttogss ©toyfrfe
otosr prior sonvfoSfsars could rad
to
to srppori ®toar«^f jtor^idngSr rstos rofied upon to
sidafeed snbsBtogd sanfesssr^iss^ir ACCtA'sr^gtofd'i^ffi© to tocftofon of Jrtonson»/, ItoSsd Stotes.

S

Slav® (1) suffered an 'mpryrn

(2) tost is fetoy traceable totoebbsHengea conduddf toe Government, and

(3) feat is likely to be redressed by a favorable judfcfai decisions, id, at 566561,112 S.Ct 2130, IIO LEd, 2d

351. sm

e iAQ&

U S. si 150-187, -120, SCI. 693, 145 LEd, 2d 810. *1 Til®

appgiiatg court adoptions of tteo district courts consiusions, Collins had faiisd te steow

sufecfent injury to

convey Arboislfe standing were erroneous, .Sfece Cofftosfe petition allege feds demonstretfegpredfof each
one of the feree prerequisites etemgnts.neeessar/ to detormfee teg had standing to mafetafe edrass nobis
relief to a federal court against tog Government under of Article fit artofeerefere satisfied DengdoVtoffb prong,.
PreofOfTtesFa^BoreretOf#g§dsS
Suffered An tojur/to Fed
Mtesugte fee parte,' invokingfederal corere noteis jurisdiction boarsths burdsn otestebifshtogths three
elements of Article HI tteg standard of proof of-proving the elements is not gspressiy or sefeorfstfvgiy pre

fliwKij
t*Vr *&»&=

as beyond a reasonabto doubt or prapondsrancs Oftoe gifidgn!re.-HOvrevgf!, vnto respect to establishing tbs
bunfgn of .proving fee efemerS . suffered an Injury in fact, fee very tost of Abide Iff,, */ Collins petition
demonstrated because Johnson determined that fee fedgtermtoecy of toe widg'rengfeg inquiryrequired by tog
residual clause both denies fair notice to defendants and Invites arbitrary gntormrngnt by judges and
increasing a defendant's sentence under ttea clause denies dug process. AS a result tteg enhanced federal
sentence of twenty-years, improperly imposed under fee residual clause of Title 18 USC t 924(e>
determined In Johnson to be unconstitutional caused him to suffer an Injury to feet based on frrefofabtefects:
i> Since fee enteanegd'twenty-yeareentenoe, cause Coffins to suffer an injury fe'fect by having to
serve fifteen mere years to federal prison then toe mandatory maximum sentence of five years toe federal
statute auiteeffaed fertefe conviction of viefaftote of Title 18 USC 1522(g) fill;
’2) Coilins Is ymf stfli oonifnucasSy burdened wife having to suffer an injury to fed constituting a
substantial ooffatorai ooftoequenegs directly resulting from toe Imposition .of fee enhanced twenty-year
sentence. Improperly imposed under toe residuaf clause of Tiffs 18 USC §924{g), c.g. because toe federal

FhM, The party toy?

i

i

>ub»;

Paffes. 483 US, 215, 231, im&Ct 595,1ST UBI2d€880996)., 1

S-SCL 1540

<201STaSse see Frank?, Gass. 203 LEd 2d 484 f20195i
FH5-

Ufsdonfey deftoes an fej£gy to Fast An acted or imminent feyaston Sf a legally 'ptoteefed
contrast to ret invasion toat oonjsdurel or hypsfeetical, .an. tojure to fsd reresfes vfdtos stsndtog to

bring tor adton ferdamagae

f

enhance sentence prevented bis New Jersey state sentence .df fife imprisonment wife parols insiiglbiiify for
te/enty-five-years ftmssras^jsfeg fere (5) years earlier then 2005, fes date: be was reioased from, federal
prison custody;
’3) Collins is yet stilt continuously burdened wife. basing to suiter an inlury In fait constituting a
substantial collateral conssgusnces dirsctiy resulting teem tbs Imposition cl tbs enhanced twenty-/,™ ^
sentence, improperly imposed under tbs residual clausa ol Tide 18 USG 6924(e), s.g sines tbs federal
enhanced ssntsncs Is forcing him te haying to serve morefesn fee twsntydbreirsars mandatory maximum
before t

sming. eligible for parole oensidersiton on tbs stats life imprisonment sentence im% parols

insilgibiiity for twerte^fe/e-ysars.. Sines tbs lids 13 USC 6924(e) erfoanced sentence olterenty-ysars vyitbsut
fe® possibility of parefeconsiderstten: forced Collins to serve fifteen years' more fees fee Bag years maximum
for bis cpnyfebon of vtofsdon of Tide 18 USCf 9^{g) (1)) authorized,
PrcofOfThsSscorteBgmsrdOffeifetesi
Tfctete FafrtsrTraosafote To Tbs ChaSsnged Cerates* Of Tfte Oowmment
With respsot:teefemsmf2)ofitetfoteS8, feat reguires Coffins to prove, feat is iiissfyfeffiy traceable to
tbs ebaftenged conduct of tbs Government in tbs csss sub ]udice, fee federal-snbanosd twenty-years
ssntsnss without parols consfdsratfen imprepedy fmpossd undsr fee. residual clause of litis 18 U.S,€, §
324fs) dscisred unoorsdiadonsf by Ibis Court in Johnson Is directly traceable to tbs conduct of tbs
Government
’1} Sines in tbs absence of fee Govsmmsnt us® of tbs stats somdodons of July 26,1966 robbsn/, Cass
> «v>

2826/1966); October 19,1972 assault wife intent te murder, Case No. 13*803); and May 2.1973 assault

conmcdon,Gass No, 1971/871;astbs feres prior predicate eonyfedens to justify fee imposition offes enhance
nor-psrslsbte twenty year sentence under tbs residual cisuss of Tide 18U,S.C. § 924(e). Coiiins would bays
faced no mors than amsximum ssntsnss offers years imprisonmentwife pareis eligibility for bis conviction for
yisiadon of lids: 13 U.S.C. S 922(g)(1); Bren if, tbs federal district court yreute bays imposed tbs fees year
ssntsncs to nun consecutive vyitb the three concurrent fifteen years sentences for a tots! maximum sentence of
twenty years imprisonment for hfsfereedregconviedons....Godins after hastegsersfed thirteen (13) years and
four {4) months offefe twrenty year sentence woufd bave wife -good corteucldms earned pursuant to Tide 18
U.S.C. § 4164 would boon mandatory released from fedora! custody in December, 2000.
.’2) Since in tbs absence of tbs Government obtaining fee enhance federal sentence of twenty-year
without parete sligibldty under fee residual cisuss of Tide 18 li&C. i 924(e), Coins -Hem isrsfff state
10

■s&ntenee- of life Imprisonment with parols snsffssfciflty would nothave boon prevented -from commencing
ssrilsr teen tbs- date of 2005 when Coins was actually released from federal prisen since c ha would hove
boon released from federsi costed*/ iivsyssrsegriler,
;3) Sines in feesbsence of tee.Govsmmsnt obtaining undo? the residual clause of life 15 U.S.C. §
924(e) the enhance, federal.sentence of twenty-years without tee possibility of parole eligibility. is forcing
Coiiins having to serve

then foe twehtyfo,m-yeam. mandatory masimym before-becoming eltgtbte for

parole consideration on hisffew.dsrsey state life impnsonmentsentence wlteparafe foeiigibiiity for twenty-fore- years.;
Prcef Of ThsThito Bernard Of Artteisl
Three 'TnmfsfskstyTeBeRgdresssd SyAFavcmfeteJedfoiteDsdstens',
With respect to Article ils element three, '(3) that Is likely to be redressed by a favorable judicial
decisions Oolites wl- likely be redresssdwite a-fa1»w-,ubfs judicial decision.. If tee district court vacate Itesn
years of the enhance nQn.-psrolabfo twenty years: sentence forproperly Imposed under "residual clause of
Tie 18U.S.C..§924(e).,thls Court dsdarsd unconstttuttenstte Johnson.
’1) Since pursuant to H. J. Pule 3:21-10, Coins will be able to ligate a claim In the Hew Jersey
Superior Court to entfoement to have foe Hew Jesse?, state sentence of life Imprisonment wit twenty-five
years, parole ineligibility to commence-from December, 2000. ’ A whole five years-sartier than the current date
of 2005. See- Breeden v. Hew Jersey Department of ComsHons... 132. H.J. 45?;. 625 A2d 1125 (.1093) which
held:

The- mom senstele setups* is te-stfow tee. prisoner to move for a stesmge trs ssntenoa.
Altecutte nsltesr the cods nor tee Rules Governing Crimlnaf Prs^m spscisfor
contemplate an suteortty toieggntensem satecfmumsisncgs,wsh2vsheretofore, fetes
..^s^5eoif'^^3fo:^teJk^y-:rfedatesi,gdmiaa^f:&te'Ctestete'forteer:5!s.^tehd'pmpcg^.
S, SB ILL 5S4, 58% 4?1 A2d 3?6 CTSB4J (referring to provisions of
H.J.SA 2c44-1 to 8, which coverauthority of court in sentencing).. The general sentence
purposes of tee Cods will best be accommodated if a prisoner claiming credit under
■principles of comity for time served elsewhere applies totee sentencing court pursuant fo
the: procedures set forte in Rule 321-10 (governing reduction of, or change in, sentence).
We do not anticipate many such applic^ons because we.doubt teat many states have a
policy such as Caiitomla’s
to sasrasiug tear auteoritytotoerRute 321-1% tee court shs» asaste; to addfiten lotto
Interests of comity, whether tee pens! purposes ol, is onprsl sentence wl have been
folSted by slfowteg a detendsnt credit for time served to tee otesr jurtsdfetten under test
tl:

js^^^srs's
cunMseent for bofe offenses-bedoncurrent Although Tfiram
foa inside. si!- jails attka” State m ref. Arearsinser a.'Hgmifo. 235 So, 2d 442, 445 (Fla
1970) (Boyed, d., concurring l***231 fo ssrt, dissenting in part), rov'd, 407US. 25,92 SXt
2006, 32 LEd.2d 530 {1972), fee reasons for a- pnaonerts eonfirrenrert outside of feew
Jersey resy ire quite different and sentencing policies In tire foreign state may differ from
ours The defendant. who violates the: law of two states owes, s dsfet to two different states
Id. 132.fe,J,, at 470.

’2) if this Court vacates Sftesft rears Of fee fftegsf nsn-paretabte enhance twenty year sentence.
improperly imposed under Title 1S O.S.C. §924fe) ’residual dayse," CotStn3 will ire considered for released
on parefe pursuant to New Jersey stare astute mandating a prisoner sentenced to Hfe Imprisonmentwife
parole ineiiglhlllty for twenty-fere years shall be paroled at. the age of 70. See State offeew Jersey v.
•o-- rw.«.

Even fernew "feme arises sndysu;re fe law." which relates to armed robberies, MJ.SA
2C:43-7,tb, recoontze feat a person serving: mandatory extended terms {for a smote
red "at tssst

35 years In: prison. See. HJ.SA 2Cr43-7.fe,s Accordingly,. we direct feat defendants
- aggregate sentence be modlfed -so tad defended becomes eft^rte for smote it see
seventy after astin$ tests tats almost thirty-nine:years {whfcir Is reoretesn fee felrtrfire:
required by fe.J.SA 2€;43-7.te,.where it applies).. Because fee trial ludgemabe ail of fee
sentences, consecutive to count. feres, not to each oteer, a new juddnent Is required and.
ws dired fee tea! judge to modify fee sentences to Impose two consecutive sentences of
twenty years wife seven years essfe withote parote dteftefity, fottewtng fee fee sentence
wife tvrenty-fere years before- psrofe eligibility, so feat fee aggregate sentence will be life
imprisonment. plus. forty years, with thirty-nine: years of parole tneiigfeiiliy, which would
ffide defendant sitgfbfeferpgrote tap seventy.
Id. 311 fe. J, Super, at454,
Considered, wife fee above precepts In mind, sJfeoagfc there have not been any standard Of proof set
forth. In Artiste IS: of fee; OS’ Constitution or by Congress or this Court to determine whiter a defendant most.
prove fee fores etemerrts of Artiste Iff beyond a reasonable doubt orpreponderance of evidence,
Collins nonetheless as fee party Invoking, federal coram nobis jurtsdfetfen under fee United States
CsnstHutisn Article 18 standing has met fee minimtm ^andard of proof of proving those three efemehts to
establish concrete injury resulting from fee. enhanced sentence improperly, imposed underthe resrduateteuse
of Title 18 U.ae, f 924(e) to entitfement to seek federal coram nobis relief, in it^rt of fee test whefeer the
standard- Is beyond a reasonable doubt or preponderance of evidence fee adverse ccnsemuencss set forth

is

ft

above ivere mo?® then suffsoieotto ogfisfy iha osm or oentroversy rsrjuirsmeof of Abiele % Sat sterner* of
sofferios so ioiury so. fsol: second siemeot tbatis.fsibyirssssbteis theobgjtenged eondoef off?® Qomamenigod tbs third element of that is libsiy to be redressed by a 'favorabte indicia! decisions,. Ss a resulting
appellate court adoption of the district eturt* vtromm eenolusioos of Cof80s. baviot faiiad is -show adverse
consequences from his -seotense sufficient to "satisfy tbe/

or .eod&Bveray ;reqtfi?eme«f of Sdicfe 18 is

preposterous- gedmbstb©--vsestedt.

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,

A
Date:

_L%—2-n

1.

13

